U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brent Anderson v. United States of America,
S.Ct. No. 20-5216

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 27,
2020, and placed on the docket on July 30, 2020. The government’s response is due on
September 11, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 13, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5216
ANDERSON, BRENT
USA

BRANDON ELLIOT BECK
FEDERAL PUBLIC DEFENDERS OFFICE
1205 TEXAS AVENUE
SUITE 507
LUBBOCK, TX 79401
806-472-7236

